No. 20-255

 

 

IN THE

Supreme Court of the United States

MAHANOY AREA SCHOOL DISTRICT,
Petitioner,
v.

B.L., A MINOR, BY AND THROUGH HER FATHER, LAWRENCE LEVY,
AND HER MOTHER, BETTY LOU LEvy,
Respondents.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

BRIEF OF LAW AND EDUCATION PROFESSORS
AS AMICI CURIAE SUPPORTING RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,868 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
